om
2311 Douglas Street COCKLE

E-Mail Address:
Omaha, Nebraska 68102-1214 CAL e g a I B riefs contact@cocklelegalbriefs.com
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegaibriefs.com

No.

KRISTI NOEM, Governor of the State of
South Dakota, JAMES TERWILLIGER, Secretary,
South Dakota Department of Revenue,

Petitioners,
v.
FLANDREAU SANTEE SIOUX TRIBE,
a Federaliy-Recognized Indian Tribe,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), [ certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8586 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2 Ist day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘
State of Nebraska o Lu OQudécaur-
My Commission Expires Nov 24, 2020 a *

Notary Public Affiant

 

39492
